      DEPARTMENT OF HEALTH & HUMAN SERVICES                             Office of Inspector General


                                                                        Washington, D.C. 20201




May 31, 2011

TO:            Donald M. Berwick, M.D.
               Administrator
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Review of Medicaid Personal Care Services Claimed by Washington State
               (A-09-09-00030)


Attached, for your information, is an advance copy of our final report on Medicaid personal care
services claimed by Washington State. We will issue this report to the Washington State
Department of Social and Health Services within 5 business days.

If you have any questions or comments about this report, please do not hesitate to call me, or
your staff may contact George M. Reeb, Assistant Inspector General for the Centers for
Medicare & Medicaid Audits, at (410) 786-7104 or through email at George.Reeb@oig.hhs.gov
or Lori A. Ahlstrand, Regional Inspector General for Audit Services, Region IX, at
(415) 437-8360 or through email at Lori.Ahlstrand@oig.hhs.gov. Please refer to report number
A-09-09-00030.


Attachment
     DEPARTMENT OF HEALTH & HUMAN SERVICES                                Office of Inspector General

                                                                          Office of Audit Services, Region IX
                                                                          90 – 7th Street, Suite 3-650
                                                                          San Francisco, CA 94103



June 3, 2011

Report Number: A-09-09-00030

Ms. MaryAnne Lindeblad
Assistant Secretary
Aging and Disability Services Administration
Department of Social and Health Services
P.O. Box 45050
Olympia, WA 98504

Dear Ms. Lindeblad:

Enclosed is the U.S. Department of Health & Human Services (HHS), Office of Inspector
General (OIG), final report entitled Review of Medicaid Personal Care Services Claimed by
Washington State. We will forward a copy of this report to the HHS action official noted on the
following page for review and any action deemed necessary.

The HHS action official will make final determination as to actions taken on all matters reported.
We request that you respond to this official within 30 days from the date of this letter. Your
response should present any comments or additional information that you believe may have a
bearing on the final determination.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that OIG post its publicly
available reports on the OIG Web site. Accordingly, this report will be posted at
http://oig.hhs.gov.

If you have any questions or comments about this report, please do not hesitate to call me, or
contact Janet Tursich, Audit Manager, at (206) 615-2063 or through email at
Janet.Tursich@oig.hhs.gov. Please refer to report number A-09-09-00030 in all correspondence.

                                             Sincerely,



                                             /Lori A. Ahlstrand/
                                             Regional Inspector General
                                               for Audit Services


Enclosure
Page 2 – Ms. MaryAnne Lindeblad


Direct Reply to HHS Action Official:

Ms. Jackie Garner
Consortium Administrator
Consortium for Medicaid and Children’s Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, IL 60601
Department of Health & Human Services
           OFFICE OF
      INSPECTOR GENERAL




    REVIEW OF MEDICAID
  PERSONAL CARE SERVICES
        CLAIMED BY
    WASHINGTON STATE




                      Daniel R. Levinson
                       Inspector General

                          June 2011
                        A-09-09-00030
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                    EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. Within the State agency, the Aging and Disability Services
Administration (the Administration) operates the personal care services program. The
Administration provides personal care services to beneficiaries throughout Washington State
using a network of State-run regional and local offices, contractors, individual providers, and
home-care agencies.

Pursuant to 42 CFR § 440.167, personal care services may be provided to individuals who are
not inpatients at a hospital or residents of a nursing facility, an intermediate care facility for the
mentally retarded, or an institution for mental diseases. The services must be authorized by a
physician pursuant to a plan of treatment or, at the State agency’s option, otherwise authorized in
accordance with a service plan approved by the State agency. Examples of personal care
services include, but are not limited to, cleaning, shopping, grooming, and bathing.

Section 1902(a)(27)(A) of the Act requires providers to keep records that fully disclose the
extent of the services provided to Medicaid beneficiaries receiving assistance under the State
plan. Pursuant to 42 CFR § 433.32(b), a State plan must provide that the Medicaid agency and,
where applicable, local agencies administering the plan will retain records for 3 years from the
date of submission of a final expenditure report. Pursuant to Washington State’s regulations,
providers of personal care services must keep complete and accurate timesheets that are
accessible to the case manager and successfully complete certain training requirements within
specified time limits. State agency guidance requires individual providers to keep timesheets for
2 years from the month in which personal care services were provided.

For our audit, we reviewed a random sample of 100 beneficiary-months. A beneficiary-month
represented the Medicaid costs for personal care services delivered by one provider to one
beneficiary during the month.

OBJECTIVE

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for personal care services in compliance with Federal and State requirements.




                                                  i
SUMMARY OF FINDINGS

During the 2-year period October 1, 2006, through September 30, 2008, the State agency did not
always claim Federal Medicaid reimbursement for personal care services in compliance with
Federal and State requirements. Of the 100 sampled beneficiary-months, the State agency
complied with requirements for 50 beneficiary-months. The State agency did not comply with
Federal requirements for the 50 remaining beneficiary-months. For 26 beneficiary-months,
totaling $10,525, providers did not comply or only partially complied with Federal and State
timesheet or training requirements. For these beneficiary-months, providers:

   •    did not have timesheets supporting daily hours of service provided to the beneficiaries
        (12 beneficiary-months),

   •    claimed more hours than were recorded on the timesheets (5 beneficiary-months), and

   •    had not completed required training within the specified timeframes or before services
        were provided to the beneficiaries in our sample (9 beneficiary-months).

These deficiencies occurred because the State agency did not adequately monitor providers for
compliance with certain Federal and State requirements. Based on our sample results, we
estimated that the State agency claimed $19,438,693 in Federal Medicaid reimbursement for
unallowable costs.

For the 24 remaining beneficiary-months, totaling $9,712, individual providers did not have
timesheets supporting daily hours of service provided to the beneficiaries. At the time of our
review, more than 2 years had passed since the months of service. Because Federal regulations
require that records be retained for 3 years after the submission of a final expenditure report, the
State agency was not in compliance with Federal regulations. We have set aside these services
for resolution by CMS and the State agency because the providers may have followed State
agency guidance and disposed of the timesheets after 2 years. We estimated that the State
agency may have improperly claimed $30,323,597 in Federal Medicaid reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $19,438,693 to the Federal Government,

    •   work with CMS to resolve the $30,323,597 that we set aside,

    •   improve its monitoring of providers to ensure compliance with Federal and State
        requirements, and

    •   revise its guidance to require providers to retain timesheets for 3 years.




                                                 ii
STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not concur with our first
recommendation. The State agency said that personal care services were provided despite
documentation discrepancies and that it has other mechanisms besides timesheets to monitor
whether services were provided. The State agency did not explicitly address providers’
compliance with training requirements. The State agency listed numerous corrective actions that
it had taken or planned to take to enhance the timekeeping process and the training provision and
tracking system.

The State agency concurred with part of our second recommendation (to work with CMS) but
did not concur with the set-aside or its amount, referring to its comments on the first
recommendation. The State agency concurred with our third and fourth recommendations and
provided information on corrective actions that it planned to take. The State agency’s comments
are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding our first recommendation, the Act requires providers to keep records that fully
disclose the extent of the services provided to Medicaid beneficiaries, and Washington State
regulations require that providers keep current and accurate timesheets. Therefore, we continue
to recommend that the State agency refund $19,438,693. Regarding our second
recommendation, we maintain that the set-aside amount is valid.




                                               iii
                                                  TABLE OF CONTENTS

                                                                                                                                Page

INTRODUCTION...................................................................................................................1

          BACKGROUND ..........................................................................................................1
              Medicaid Program .............................................................................................1
              Washington State’s Medicaid Program ............................................................1
              Washington State’s Personal Care Services Program .......................................1
              Federal Requirements Related to Personal Care Services ................................2

          OBJECTIVE, SCOPE, AND METHODOLOGY ........................................................3
               Objective ...........................................................................................................3
               Scope .................................................................................................................3
               Methodology .....................................................................................................4

FINDINGS AND RECOMMENDATIONS .........................................................................5

          NONCOMPLIANT AND PARTIALLY NONCOMPLIANT SERVICES .................5
              Timesheets Not Retained and Hours Claimed Not Supported..........................5
              Training Requirements Not Met .......................................................................6

          POTENTIALLY NONCOMPLIANT SERVICES ......................................................7

          ESTIMATES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE
           AMOUNTS ................................................................................................................8

          RECOMMENDATIONS ..............................................................................................8

          STATE AGENCY COMMENTS .................................................................................8

          OFFICE OF INSPECTOR GENERAL RESPONSE ...................................................8

APPENDIXES

          A: SAMPLE DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: STATE AGENCY COMMENTS




                                                                    iv
                                       INTRODUCTION

BACKGROUND

Medicaid Program

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with a CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements.

Washington State’s Medicaid Program

In Washington State, the Department of Social and Health Services (the State agency)
administers the Medicaid program. The State agency uses the Medicaid Management
Information System, a computerized payment and information system, to process and pay
Medicaid claims. The State agency uses a second system, the Social Services Payment System,
to process and pay Medicaid social service claims, such as those for personal care services.

The Federal Government’s share of costs is known as the Federal medical assistance percentage
(FMAP). From October 1, 2006, through September 30, 2007, the FMAP in Washington State
was 50.12 percent, and from October 1, 2007, through September 30, 2008, the FMAP was
51.52 percent.

The State agency submits a quarterly expenditure report to CMS, the Quarterly Medicaid
Statement of Expenditures for the Medical Assistance Program (Form CMS-64). Form CMS-64
details all expenditures for the quarter, adjustments, and FMAP allocations. The expenditures
claimed on Form CMS-64 must comply with the State plan and Federal requirements.

Washington State’s Personal Care Services Program

Within the State agency, the Aging and Disability Services Administration (the Administration)
operates the personal care services program. The Administration is composed of four service
groups: (1) home and community, (2) developmental disability, (3) residential care, and
(4) management. One way that the Administration assists adults with disabling conditions due to
aging, disease, or accident and children and adults with developmental disabilities is through
personal care services. The Administration provides personal care services to beneficiaries
throughout Washington State using a network of State-run regional and local offices, contractors,
individual providers, and home-care agencies (agency providers).

The Washington Administrative Code (WAC), § 388-106-0010, defines personal care services as
“physical or verbal assistance with activities of daily living and instrumental activities of daily
living due to … functional limitations.” The activities of daily living include eating, toilet use,



                                                 1
medication management, bathing, dressing, and locomotion. The instrumental activities of daily
living include meal preparation, housework, essential shopping, and travel to medical services.

To determine whether a beneficiary qualifies for personal care services, the State agency
conducts an initial needs assessment. A State case manager performs the initial assessment in
the beneficiary’s home or another setting by asking questions and observing the beneficiary.

An individual or agency provider may deliver personal care services in the beneficiary’s home.
Pursuant to State regulations, an individual provider must be at least 18 years of age, pass a
criminal background check, sign a provider contract/agreement with the State agency, and fulfill
certain training requirements. An agency provider must have a current Washington State
business license; sign an agreement with Washington State; and hire, train, and supervise its
personal care services caregivers.

Individual and agency providers must complete monthly timesheets that show the number of
hours of personal care services provided per day to each beneficiary and the various tasks
performed during the month. Providers and beneficiaries are required to sign and retain copies
of timesheets. Individual providers must keep timesheets that are accessible to the case manager
for 2 years from the month in which services were provided.

The State agency pays individual and agency providers an hourly rate that is updated annually.
Providers notify the State agency of the hours worked during the month by mailing invoices to
the State agency or by calling an automated answering system. Providers and beneficiaries are
not required to submit timesheets to the State agency.

Federal Requirements Related to Personal Care Services

The State agency must comply with certain Federal requirements in determining whether
beneficiaries are eligible for personal care services. Pursuant to section 1905(a)(24) of the Act
and implementing Federal regulations (42 CFR § 440.167), personal care services may be
provided to individuals who are not inpatients at a hospital or residents of a nursing facility, an
intermediate care facility for the mentally retarded, or an institution for mental diseases. The
services must be (1) authorized by a physician pursuant to a plan of treatment or, at the State
agency’s option, otherwise authorized in accordance with a service plan approved by the State
agency; (2) provided by an attendant who is qualified to provide such services and who is not the
recipient’s legally responsible relative; and (3) furnished in a home or, at the State agency’s
option, at another location. 1

Office of Management and Budget Circular A-87 establishes principles and standards for
determining allowable costs incurred by State and local governments under Federal awards.
Specifically, section C.1.c of Attachment A states that to be allowable, costs must be authorized
or not prohibited by State or local laws or regulations.


1
  Washington State beneficiaries may also receive personal care services in a residential setting, such as an adult
family home or a boarding home.



                                                           2
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the State agency claimed Federal Medicaid
reimbursement for personal care services in compliance with Federal and State requirements.

Scope

For the 2-year period October 1, 2006, through September 30, 2008, we limited our audit to
certain Medicaid costs claimed for personal care services delivered by certain providers to
long-term-care beneficiaries as authorized under the State plan. We excluded:

    •    providers serving beneficiaries receiving personal care services under various waiver
         programs; 2

    •    residential providers; 3

    •    expenditures claimed for activities such as orientation, training, and transportation; and

    •    beneficiary-months in which the claimed amount was less than $100. 4

After taking into account the exclusions above, we determined that the State processed and
claimed 312,232 beneficiary-months totaling $320,195,716 ($162,946,965 Federal share) for
personal care services during the audit period. We reviewed a random sample of 100
beneficiary-months.

We did not review the overall internal control structure of the State agency or the Medicaid
program. Rather, we limited our internal control review to the objective of our audit.

We conducted fieldwork at the State agency’s offices in Lacey, Washington, and at 12 Area
Agencies on Aging, 3 State agency regional offices, and 14 agency providers throughout
Washington State. We visited no individual providers.




2
 Under various waivers authorized under section 1915(c) of the Act, States may receive approval from CMS to fund
Medicaid home and community-based services without meeting State plan requirements. These waivers allow
States to limit the availability of services geographically, target specific populations or conditions, control the
number of individuals served, and cap overall expenditures.
3
 A residential provider is a facility that is licensed as an adult family or boarding home under contract with the State
agency.
4
 A beneficiary-month represented the Medicaid costs for personal care services delivered by one provider to one
beneficiary during the month.



                                                           3
Methodology

To accomplish our objective, we:

       •   reviewed applicable Federal and State laws, regulations, and guidance;

       •   held discussions with State agency and CMS officials to gain an understanding of the
           personal care services program;

       •   interviewed State agency, Area Agencies on Aging, and agency provider officials to
           identify policies and procedures related to the personal care services program;

       •   obtained from the State agency’s Social Services Payment System a data file of claim
           lines for personal care services for long-term-care beneficiaries under the State plan;

       •   created a sampling frame that contained 312,232 beneficiary-months, totaling
           $320,195,716 ($162,946,965 Federal share);

       •   reconciled the $320,195,716 claimed for personal care services to the amount reported on
           Form CMS-64;

       •   selected from the sampling frame a simple random sample of 100 beneficiary-months for
           which we:

           o   reviewed the provider’s documentation (e.g., valid contracts/agreements with the
               State agency, background checks, and training certificates) to determine whether the
               provider was qualified,

           o   reviewed the timesheet(s) supporting the beneficiary-month, 5

           o   reviewed the provider’s corresponding beneficiary file for the beneficiary-month, and

           o   reviewed the State agency’s electronic Comprehensive Assessment Reporting
               Evaluation file for the beneficiary; and

       •   estimated the unallowable and potentially unallowable Federal Medicaid reimbursement.

Appendix A contains the details of our sample design and methodology, and Appendix B
contains our sample results and estimates.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.
5
    Area Agencies on Aging staff obtained individual provider timesheets for us.


                                                           4
                          FINDINGS AND RECOMMENDATIONS

During the 2-year period October 1, 2006, through September 30, 2008, the State agency did not
always claim Federal Medicaid reimbursement for personal care services in compliance with
Federal and State requirements. Of the 100 sampled beneficiary-months, the State agency
complied with requirements for 50 beneficiary-months. The State agency did not comply with
Federal requirements for the 50 remaining beneficiary-months. For 26 beneficiary-months,
totaling $10,525, providers did not comply or only partially complied with Federal and State
timesheet or training requirements. For these beneficiary-months, providers:

   •   did not have timesheets supporting daily hours of service provided to the beneficiaries
       (12 beneficiary-months),

   •   claimed more hours than were recorded on the timesheets (5 beneficiary-months), and

   •   had not completed required training within the specified timeframes or before services
       were provided to the beneficiaries in our sample (9 beneficiary-months).

These deficiencies occurred because the State agency did not adequately monitor providers for
compliance with certain Federal and State requirements. Based on our sample results, we
estimated that the State agency claimed $19,438,693 in Federal Medicaid reimbursement for
unallowable costs.

For the 24 remaining beneficiary-months, totaling $9,712, individual providers did not have
timesheets supporting daily hours of service provided to the beneficiaries. At the time of our
review, more than 2 years had passed since the months of service. Because Federal regulations
require that records be retained for 3 years after the submission of a final expenditure report, the
State agency was not in compliance with Federal regulations. We have set aside these services
for resolution by CMS and the State agency because the providers may have followed State
agency guidance and disposed of the timesheets after 2 years. We estimated that the State
agency may have improperly claimed $30,323,597 in Federal Medicaid reimbursement.

NONCOMPLIANT AND PARTIALLY NONCOMPLIANT SERVICES

Timesheets Not Retained and Hours Claimed Not Supported

Pursuant to section 1902(a)(27) of the Act, a State plan for medical assistance must:

       … provide for agreements with every person or institution providing services
       under the State plan under which such person or institution agrees to keep such
       records as are necessary fully to disclose the extent of the services provided to
       individuals receiving assistance under the State plan and to furnish the State
       agency or the Secretary with such information, regarding any payments claimed
       by such person or institution for providing services under the State plan, as the
       State agency or the Secretary may from time to time request.




                                                  5
Federal regulations (42 CFR § 433.32(b)) require a State plan to provide that the Medicaid
agency and, where applicable, local agencies administering the plan will retain records for
3 years from the date of submission of a final expenditure report. 6

Pursuant to WAC § 388-71-0515(10), personal care services providers must complete and keep
accurate timesheets that are accessible to the social worker/case manager. Further, the State
agency’s Employment Reference Guide for Individual Providers requires individual providers to
keep timesheets for 2 years from the month in which personal care services were provided.

For 17 sampled beneficiary-months totaling $4,800, providers did not comply or only partially
complied with Federal and State requirements:

    •   For 12 beneficiary-months totaling $4,738 (all unallowable), individual providers did not
        have timesheets supporting daily hours of service provided to the beneficiaries. State
        agency guidance required providers to retain timesheets for at least 2 years following the
        month of service. At the time of our review, less than 2 years had passed since the
        months of service.

    •   For five beneficiary-months totaling $2,966 (of which $62 was unallowable), providers
        claimed more hours than were recorded on the timesheets. We questioned only the hours
        not supported by the timesheets.

Training Requirements Not Met

Pursuant to WAC § 388-71-0540(7), the State agency, Area Agencies on Aging, or a managed
care entity will deny payment for the services of an individual or agency provider that does not
successfully complete training requirements within the time limits specified in
WAC §§ 388-71-05665 through 388-71-05865:

    •   WAC § 388-71-05730 requires individual and agency providers to complete a basic
        training course within 120 days after being authorized to provide personal care services
        for a beneficiary.

    •   WAC § 388-71-05780 requires individual and agency providers to complete at least
        10 hours of continuing education each calendar year after the year in which they
        successfully complete basic training. Pursuant to WAC § 388-71-05775, continuing
        education is additional caregiving-related training designed to increase and keep current a
        person’s knowledge and skills.

In addition, WAC § 257-05-160 requires individual providers to complete a safety training
course no later than 120 days after beginning work with their first beneficiary.



6
 The Washington State plan, section 6.1, “Fiscal Policies and Accountability,” states that the Medicaid agency
administering the plan maintains an accounting system and supporting fiscal records adequate to ensure that claims
for Federal funds are in accordance with 42 CFR § 433.32.


                                                         6
For nine sampled beneficiary-months totaling $5,725 (all unallowable), providers had not
completed required training within the specified timeframes or before services were provided to
the beneficiaries in our sample:

   •   For five beneficiary-months, individual and agency providers had not completed at least
       10 hours of continuing education each calendar year after the year in which they
       successfully completed basic training.

   •   For three beneficiary-months, individual providers had not completed a safety training
       course within 120 days after beginning to work with their first beneficiary or before
       services were provided to the beneficiaries in our sample.

   •   For one beneficiary-month, the agency provider had not completed a basic training
       course within 120 days after beginning to work with its first beneficiary or before
       services were provided to the beneficiary in our sample.

POTENTIALLY NONCOMPLIANT SERVICES

Pursuant to section 1902(a)(27) of the Act, a State plan for medical assistance must:

       … provide for agreements with every person or institution providing services
       under the State plan under which such person or institution agrees to keep such
       records as are necessary fully to disclose the extent of the services provided to
       individuals receiving assistance under the State plan and to furnish the State
       agency or the Secretary with such information, regarding any payments claimed
       by such person or institution for providing services under the State plan, as the
       State agency or the Secretary may from time to time request.

Pursuant to 42 CFR § 433.32(b), a State plan must provide that the Medicaid agency and, where
applicable, local agencies administering the State plan will retain records for 3 years from the
date of submission of a final expenditure report. However, the State agency’s Employment
Reference Guide for Individual Providers states that individual providers are required to keep
timesheets for 2 years.

For 24 sampled beneficiary-months totaling $9,712, individual providers did not have timesheets
supporting daily hours of service provided to the beneficiaries. Timesheets were the only
documentation that supported the type and extent of services. At the time of our review, more
than 2 years had passed since the months of service. Because these months of service were still
within the 3-year retention period, the State agency was not in compliance with Federal
regulations. The providers did not retain timesheets beyond the 2-year State agency requirement.
For the sampled beneficiary-months, we did not question the costs because the providers may
have followed State agency guidance and disposed of the timesheets after 2 years. We have set
aside these services for resolution by CMS and the State agency.




                                                7
ESTIMATES OF UNALLOWABLE AND POTENTIALLY UNALLOWABLE
AMOUNTS

Of the 100 sampled beneficiary-months, 26 beneficiary-months did not comply or only partially
complied with Federal and State requirements. Based on our sample results, we estimated that
the State agency claimed $19,438,693 in unallowable Federal Medicaid reimbursement.

In addition, for 24 sampled beneficiary-months, we could not determine whether the services
complied with Federal requirements. Based on our sample results, we estimated that the State
agency potentially claimed $30,323,597 in unallowable Federal Medicaid reimbursement.

RECOMMENDATIONS

We recommend that the State agency:

    •   refund $19,438,693 to the Federal Government,

    •   work with CMS to resolve the $30,323,597 that we set aside,

    •   improve its monitoring of providers to ensure compliance with Federal and State
        requirements, and

    •   revise its guidance to require providers to retain timesheets for 3 years.

STATE AGENCY COMMENTS

In its comments on our draft report, the State agency did not concur with our first
recommendation. The State agency said that personal care services were provided despite
documentation discrepancies and that it has other mechanisms besides timesheets to monitor
whether services were provided. The State agency did not explicitly address providers’
compliance with training requirements. The State agency listed numerous corrective actions that
it had taken or planned to take to enhance the timekeeping process and the training provision and
tracking system.

The State agency concurred with part of our second recommendation (to work with CMS) but
did not concur with the set-aside or its amount, referring to its comments on the first
recommendation. The State agency concurred with our third and fourth recommendations and
provided information on corrective actions that it planned to take. The State agency’s comments
are included in their entirety as Appendix C.

OFFICE OF INSPECTOR GENERAL RESPONSE

Regarding our first recommendation, the Act requires providers to keep records that fully
disclose the extent of the services provided to Medicaid beneficiaries, and Washington State
regulations require that providers keep current and accurate timesheets. Therefore, we continue



                                                 8
to recommend that the State agency refund $19,438,693. Regarding our second
recommendation, we maintain that the set-aside amount is valid.




                                             9
APPENDIXES
                                                                                       Page 1 of 2


                APPENDIX A: SAMPLE DESIGN AND METHODOLOGY

POPULATION

The population consisted of claim lines for personal care services submitted by providers for
which the Washington Department of Social and Health Services (the State agency) claimed
Federal Medicaid reimbursement during the period October 1, 2006, through September 30,
2008. We limited the population to personal care services provided to long-term-care
beneficiaries as authorized under the State plan.

SAMPLING FRAME

The State agency provided us with a data file of claim lines for personal care services. This file
excluded the services from various waiver programs authorized under section 1915(c) of the
Social Security Act. The data extract totaled $365,980,414 and consisted of 417,492 claim lines
for personal care services submitted by providers for beneficiaries in Washington State and
claimed by the State agency for Federal Medicaid reimbursement during our audit period.

From the data file, we excluded claim lines for residential providers (37,855 claim lines totaling
$42,967,951) and excluded claim lines related to activities such as orientation, training, and
transportation (58,311 claim lines totaling $2,604,608).

The remaining 321,326 claim lines are detailed as follows:

                                      Detail of Claim Lines

Service Code/Provider Type           No. of Claim Lines for            No. of Claim Lines for
                                     Individual Providers              Home-Care Agencies
             4501                            188,866
             4559                             10,460
             4582                                                                    48
             4583                                                               121,952

The 321,326 claim lines included multiple lines per beneficiary, provider, and service month.
We combined those lines and identified 315,476 unique beneficiary-provider-service months
(beneficiary-month). A beneficiary-month represented the Medicaid costs for personal care
services delivered by one provider to one beneficiary during the month. From the 315,476
beneficiary-months, we excluded 3,244 beneficiary-months in which the claimed amount was
less than $100. Therefore, the sampling frame consisted of 312,232 beneficiary-months for
which the State agency claimed a total of $320,195,716 for personal care services during our
audit period.

SAMPLE UNIT

The sample unit was a beneficiary-month with a claimed amount of $100 or more.
                                                                                     Page 2 of 2


SAMPLE DESIGN

We used a simple random sample.

SAMPLE SIZE

We selected 100 beneficiary-months.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General (OIG), Office of Audit Services (OAS), statistical
software to generate the random numbers.

METHOD OF SELECTING SAMPLE UNITS

We consecutively numbered the sample units in the frame from 1 to 312,232. After generating
100 random numbers, we selected the corresponding frame items.

ESTIMATION METHODOLOGY

We used the OIG/OAS statistical software to estimate the unallowable and potentially
unallowable amounts. Because the State agency had different Federal medical assistance
percentages (FMAP) for the 2 years in our audit period, we calculated the Federal reimbursement
amount for each sample beneficiary-month by applying the applicable FMAP to the total amount
determined to be unallowable for the sample beneficiary-month. We used the lower limit of the
90-percent confidence interval to determine the unallowable Federal Medicaid reimbursement.
We used the point estimate to determine the potentially unallowable Federal Medicaid
reimbursement for the services that we set aside.
                     APPENDIX B: SAMPLE RESULTS AND ESTIMATES

NONCOMPLIANT AND PARTIALLY NONCOMPLIANT SERVICES

                                               Sample Results

                                                                                           Value of
                                                                                         Noncompliant
                     Value of                              Value of           No. of      Beneficiary-
                      Frame                                 Sample         Noncompliant     Months
                     (Federal            Sample            (Federal         Beneficiary-   (Federal
    Frame Size        Share)              Size              Share)           Months 1       Share)
     312,232       $162,946,965            100              $50,030             26          $10,525

       Estimates of Noncompliant and Partially Noncompliant Services (Federal Shares)
                    (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate                     $32,861,700
                                Lower limit                        19,438,693
                                Upper limit                        46,284,707

POTENTIALLY NONCOMPLIANT SERVICES

                                               Sample Results

                                                                                           Value of
                                                                                          Potentially
                                                                              No. of     Noncompliant
                     Value of                              Value of         Potentially   Beneficiary-
                      Frame                                 Sample         Noncompliant     Months
                     (Federal            Sample            (Federal         Beneficiary-   (Federal
    Frame Size        Share)              Size              Share)            Months        Share)
     312,232       $162,946,965            100              $50,030             24          $9,712


                 Estimates of Potentially Noncompliant Services (Federal Shares)
                     (Limits Calculated for a 90-Percent Confidence Interval)

                               Point estimate                     $30,323,597
                                Lower limit                        19,844,864
                                Upper limit                        40,802,330



1
 For five sample beneficiary-months, we computed a partially unallowable amount by determining the difference
between the claimed hours during the month and the hours recorded on the timesheet. We multiplied the difference
by the provider’s applicable hourly rate of pay.
                                                                                               Page 1 of5


              APPENDIX C: STATE AGENCY COMMENTS 





                                       STATE Of WASHINGTON
                DEPARTMENT OF SOCIAL AND HEALTH SERV ICES
                          AGING AND DISAB ILI TY SERVI CES AD.\1INISTRATION
                               PO BM 45600 •   Olp"pi~,   WA   9Il~()4·S6()(J



                                        February 3, 2011



Lori A. Ahlstrand
Regionallnspectof General for Audit Services
Office of Audi t Services, Region IX
90 - 7th Street, Suite 3-650
San Francisco, CA 94103

Report Number: A-09-09-00030

Dear Ms. Ahlstrand:

Enclosed are Washington Slate's comments on the U.S. Department of Health & Human
Services, Office of Inspector General (DIG) draft report entitled Review ofMedicaid Personal
Core Services Claimed by Providers in Washington Slate. An electronic copy of the State's
comments has also been sent 10 Janet Tursich at Janct.Tursich@oig.hhs.goYandStacyJensenat
Stacy.Jensen@oig.hhs.gov.

Please contact Marilee Fosbre al (360) 725-2536 or Marilce.Fosbrc@d-;hs.wa.govwithany
questions or additional requests.

                                             Sincerely,

                                            ~~
                                            Mary)nn: Lindeblad, Assistant Secretary
                                             Aging and Disability Services Administration

Enclosure

cc: 	   Bill Moss
        Chris Imhoff
        Marilee Fosbre




                                               .-. 

                                                                                                       Page 2 of5




             Washington State Medicaid Perso nal Care Services 

                   OIG Report Number: A-09-09-00030 

                             State Comments 


1.) Finding: 

For 26 beneficiary-months, totaling $10,525, providers did nol comply or only partially complied 

with Federal and Slate limesheet or training requirements. 


Recommendation: 

The Sta te agency refund $19,438,693 to the Federal Government. 


Slate Response:
The Department does not concur with the recommendation 10 refund $ 19,438,693 to the 

Federal Government. 


Reasons for Non-Concurrence:
   • 	 Personal care services were provided to recipients despite documentation d iscrepancies
       cited in the audit. Personal care services by definition provide assistance with very basic
       needs such as eating. bathing. transferring, turning and ambulation. Recipients depend
       on this service for daily tasks that are instrumental in maintaining their health and safety.
       The very nature of personal care makes it evident when it is not provided.

   • 	 The Department has other mechanisms besides a record of time sheets to monitor
       whether services occurred.
          o 	 Consistent with statute, the recipient supervises their care provider and is given
             . information on how to contact their case manager if there are concerns about
              service delivery. Recipients or their representatives report to case managers
               when services are not received.

           o 	 In addition to self reports, case managers follow a contact schedule that includes
               a review of services and whether they are meeting the client's assessed needs.

           o 	 Washington state law requires mandatory reporting of suspected abuse, neglect
               or exploitation of a vulnerable adult which offers additional protection to
               recipients who may not be receiving needed services.

           o 	 Recipients are expected to keep copies of time sheets for their individual
               providers. Case managers are instructed to periodically review a sample of
               clients' time sheets and verify with sampled clients that authorized services have
               been provided and to then documenllhe review of time sheets and the
               discuS$ion of service verification in a Service Episode Record.

          o 	 The Social Service Payment System will not process payments in excess of
              hours authorized. A provider is therefore unable to claim and be reimbursed for
              hours tha t exceed those authorized by the case manager. By submitting an
              invoice. providers attest to the accuracy of their claim. This provider attestation
              is no different than other types of Medicaid claims such as physician or durable
              medical eQuipment billing.



Fosbre
2(1/11                                                                                       Page 1
                                                                                                         Page 3 of5




              Washington State Medicaid Personal Care Services 

                    OIG Report Number: A-09-09-00030 

                              State Comments 


             o 	 The Department, through its Payment Review Program, runs algorithms to detect
                 possible fraudulent d aims. Overpayments are initiated and referrals are made to
                 the Medicaid Fraud Control Unit as indicated by findings .

 Corrective actions taken or planned:
 a) 	 The Department revised its form called "Acknowledgement of My Responsibilities as the
      Employer of My Individual Providers' to better emphasize client responsibilities as the
      employer of record . In the 12 month period ending Oelober 2010, staff reviewed the revised
      form with all clients with all clients who employed an individual provider and will continue to
     do so with new clients who select an Individual Provider and with cu rrent clients who switch
     to an IP from a homecare agency or residential selling.

 b) 	 In April 2010, all Individual Providers delivering personal care services reooived a written 

      reminder of their obligation to keep a record of the date/time that in-home services are 

      prOvided to ADSA clients and to complete and retain copies of their timesheets. 


 c) 	 As a result of the Department's actions. the fiscal year 2010 Medicaid audit noted a 

      significant improvement in both response to the auditors request for time sheets and in 

      completed lime sheets. 


d) 	 In 2011, Individual Providers delivering personal care services will again receive a written 

     reminder of their obligation to keep a record of the date/time that in-home services are 

     provided to ADSA clients and complete and retain copies of their limesheets. 


e) 	 The Department is procuring a provider compensation system thaI will have the capacity to
     inform clients of provider payments. This will assist in fraud detection and prevention efforts.

f) 	 The Department has a robust internal auditing system as part of its continuous quality 

     improvement program. During each auditing cycle a random statistically valid sample of 

     client files are reviewed. This review specifically includes an examination of whether 

     provider training requirements were met. Any deficiencies noted are remediated on the 

     individual/evel within 45 days of the finding . 


g ) 	 Since the time the audit was comple ted the Department has implemented a new training
      provision and tracking system through the Training Partnership, a coll aborative effort
      between the Department and the Service Employees International Union (SEIU). The
      Training Partnership provides all required training and tracks that all training requi rements
      are met for atl Individual Providers and tnnse home cere workers who are unionized through
      SEIU . Care providers receive regular written and telephonic notification of tra ining
     deadlines for basic training and continuing education.

h} 	 The Training Partnership also provides reports, updated daily, to case management staff
     containing information on providers' !raining status. This report enables staff to send notices
     to the provider and the clie nt that payment wilt not be made to the provider if this training is
     not completed by Ihe required deadline.



Fosbre
2/1 / 11 	                                                                                     Page 2
                                                                                                     Page40fS




             Washington State Medicaid Personal Care Services 

                   OIG Report Number: A-09-09-00030 

                             State Comments 


2.) Finding: 

Because Federal regulations require that records be retained fot th ree years after the 

submission of a final expenditure report , the State agency was not in compliance with Federal 

regulations. We have sel aside Ihese services for resolution by eMS and the State agency 

because the providers may have followed State agency guidance and disposed of the 

timesheets after two years. 


Recommendation: 

The Stale agency work with eMS to resolve the $30,323,597 that      we sel aside. 

State response: 

The Department concurs with the recommendation to work with eMS to resolve the amount set 

aside. For reasons oullined in recommendation #1, the Department does not concur with this 

set aside or its amount. 


Corrective actions taken or planned: 

a) The Department will work with eMS to resolve the $30,323,597 set aside in this audit. 




3,) Finding: 

These deficiencies occurred because the State agency did not adequa tely monitor providers for 

compliance with certain Federal and State requirements. 


Recommendation: 

The State agency improves its monitoring of providers to ensure compliance with Federal and 

State requirements. 


State Respons e: 

The Department concors with the recommendation to enhance monitOring of providers to 

ensure compliance with Federal and State requirements. 


Corrective actions taken Of planned:
   a) 	 The Department will implement a new Provider Compensation System (PCS) as a
        subsystem of Provider One, the new Medicaid Management Information System. The
        PCS will have the capacity to generate intermittent, random notices to a sample of
        clients informing them how many hours were paid to the provider on their behalf during
        the previous month. The clients will be instructed to notify the Department if they notice
        a discrepancy in the hours provided versus the hours paid. The PCS system is
        expected to be implemented by the end of 2012 and will assist the Department in fraud
        prevention and detection efforts.

   b) 	 A recent internal audit conducted by the Department indicated the complexity of the
        timesheets used by personal care providers as a possible reason for inaccuracy. The
        time sheet foon will be reviewed for ease of use.


Fosbre
2/1/11                                                                                      Page 3
                                                                                                        Page 5 of5




               Washington State Medicaid Personal Care Services 

                     DIG Report Numb er: A-09-09-00030 

                               State Comments 


    c) 	 Individual Providers delivering personal care services wilt again receive a written
         reminder of their obligation to keep a record of the dateltime thai in-home services are
         provided to ADSA clients and complete and retain copies of their timesheets.

    d) 	'Unlil the pes system is operational, a randomly selected sample of Individual
         Provider time sheets will be audited to ensure that services billed for are consistent
         with timesheel dOCl,lmentation submitted.

    e) 	 Continue 10 work with the Training Partnership to implement system improvements
         for better statewide tracking of Individual Provider training.


4.) Finding;
Pursuant to 42 CFR § 433.32(b), a State plan must provide thaI the Medicaid agency and,
where applicable, local agencies administering the plan will retain records for three years from
the date of submission of a final expenditure report. However, the State agency's Employment
Reference Guide for Individual Providers states that individual providers are required to keep
timesheets for two years.

Recommendation: 

The State agency revises its guidance    to require providers to retain timesheets for three years. 

State Response: 

The Department concurs with the recommendation to change the retention requirements for 

provider timesheets to three years. However, the State's record for purposes of 42 CFR § 

433.32(b) is the provider invoice which is submitted either through the Interactive Voice 

Recognition (IVR) system or on paper through the mail. 


Correctiye actions taken or planned: 

a.) The retention requirement will be changed to a minimum of three years. 





Fosbre
2/1/11                                                                                        Page 4
